Office of Material Loss Reviews
Report No. MLR-10-015


Material Loss Review of Mirae Bank,
Los Angeles, California




                                  January 2010
                                      Executive Summary

                                      Material Loss Review of Mirae Bank,
                                      Los Angeles, California
                                                                                       Report No. MLR-10-015
                                                                                                January 2010

Why We Did The Audit
On June 26, 2009, the California Department of Financial Institutions (CDFI) closed Mirae Bank (Mirae)
and named the FDIC as receiver. On July 22, 2009, the FDIC notified the Office of Inspector General
that Mirae’s total assets at closing were $410.0 million and the estimated material loss to the Deposit
Insurance Fund (DIF) was $49.7 million. As required by section 38(k) of the Federal Deposit Insurance
(FDI) Act, the OIG conducted a material loss review of the failure of Mirae.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background
Mirae was insured by the FDIC on July 1, 2002 as a state-chartered, nonmember, minority-owned bank
headquartered in Los Angeles, California that principally serviced the Korean-American market.
Specifically, Mirae operated in the highly competitive Koreatown area of Los Angeles. Customers in its
market were known to “chase” favorable rates resulting in higher-than-normal deposit turnover.
Accordingly, Mirae’s business strategy included offering above-market deposit rates to attract customers.
The bank’s loan portfolio was concentrated in Commercial Real Estate (CRE) lending. In 2006, Mirae
became a wholly-owned subsidiary of Mirae Bancorp. The bank also operated four branch offices, the
last of which opened in the first quarter of 2009. Since 2008, Mirae operated two loan production
offices – one in Seattle, Washington and the other in Denver, Colorado. The bank established a
subsidiary, MRB Property Holding LLC, in 2009, to hold other real estate properties and conduct
business operations of car washes in foreclosure.


Audit Results
Causes of Failure and Material Loss

Mirae failed because its Board and management pursued an aggressive growth strategy centered in CRE
lending and failed to ensure sound loan underwriting practices. In particular, Mirae failed to
appropriately review a significant portion of its loan portfolio underwritten by one individual. Although
Mirae’s CRE concentrations were not considered extraordinarily high within the context of regulatory
guidance, certain of those concentrations involved loans to businesses highly susceptible to adverse
economic conditions. Mirae’s aggressive growth strategy was initially profitable, but weaknesses in
Mirae’s Board and management oversight related to loan underwriting and risk management practices
were exposed when the economy started to contract. Mirae’s funding strategy of paying above-market
rates for deposits and its increasing reliance on wholesale funding, such as brokered deposits, proved to
be unsustainable once the bank’s financial condition started to deteriorate. Ultimately, losses in the loan
portfolio eroded the bank’s capital and liquidity became strained. Collectively, these factors led to the
failure of the bank.




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Mirae Bank,
                                      Los Angeles, California
                                                                                       Report No. MLR-10-015
                                                                                                January 2010

The FDIC’s Supervision of Mirae

Our review focused on the FDIC’s supervision of Mirae from 2005 until its failure in 2009. During this
period, the FDIC conducted on-site examinations as required and subjected Mirae to offsite monitoring.
The FDIC became aware of Mirae’s growth strategy in 2005, and by 2006 the FDIC determined Mirae’s
overall condition to be less than satisfactory due to the bank’s increased risk profile by funding rapid asset
growth with high-cost volatile funds. The FDIC recommended that Mirae’s Board adopt a resolution to
address these areas. In the 2007 examination, examiners found the overall condition of the bank
improved but considered assigning Mirae a less than satisfactory composite rating. However, after taking
into consideration information provided by management and actions taken by management to address
concerns, the FDIC and CDFI determined that Mirae’s condition warranted a higher composite rating.
The higher 2007 composite rating increased the time between on-site examinations and shifted offsite
oversight to the field office during a period when Mirae’s condition was weakening. In hindsight, more
supervisory attention at the 2007 examination to the loans originated by one individual, who generated a
significant portion of the loan growth, would have been prudent. Further, the following factors should
have resulted in the FDIC providing greater supervisory attention to Mirae following the 2007
examination: (1) Mirae’s noted increasing risk profile, (2) deteriorating economic conditions to which
Mirae was vulnerable, and (3) offsite monitoring flags that identified potential concerns.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. However, by the time Mirae’s capital levels fell below
the required thresholds necessary to implement PCA, the bank’s condition had deteriorated to the point at
which the institution could not raise additional capital in the time period necessary to prevent a liquidity
failure and was subsequently closed on June 26, 2009.

Management Response

On January 15, 2010, the Director, DSC, provided a written response to the draft report. DSC’s response
reiterated the OIG’s conclusions regarding the cause of Mirae’s failure. With respect to our assessment of
FDIC’s supervision, DSC’s response also reiterates the supervisory history, including supervisory actions,
presented in the report. DSC’s response also states that examiners made recommendations in 2007 to
further enhance Mirae’s credit administration practices due to one bank official being responsible for
originating 51 percent of the substandard loans identified during the 2007 examination. As a point of
clarification, although we did find that examiners made such recommendations, we did not find any
evidence that examiners were aware of the bank official's involvement in the substandard loans identified
in the examination report. In that regard, our report states that examiners did not have the opportunity to
consider information associated with loans originated by this individual at the 2007 examination because
the information had not been included in the field office correspondence file at the time examiners were
planning the examination.




                                  To view the full report, go to www.fdicig.gov
                                Contents

Background                                                     2

Causes of Failure and Material Loss                           3
  Aggressive Growth Beginning in 2005                         3
  Loan Underwriting                                           5
  Allowance for Loan and Lease Losses                         6
  Liquidity Funding Strategy                                  6

The FDIC’s Supervision of Mirae                                8
  Supervisory History                                          8
  Supervisory Concern Related to Aggressive Growth            10
  Supervisory Concern Related to Loan Underwriting            11
  Supervisory Concern Related to ALLL                         12
  Offsite Review Program                                      13
  Supervisory Concern Related to Liquidity Funding Strategy   14
  Implementation of PCA                                       15

Corporation Comments                                          15

Appendices
  1. Objectives, Scope, and Methodology                       16
  2. Examples of Broker/Employee-Referred Loans               18
  3. Glossary of Terms                                        19
  4. Acronyms                                                 21
  5. Corporation Comments                                     22

Tables
   1. Financial Condition of Mirae, 2005 to 2009               2
   2. Examinations and Visitations of Mirae, 2005 to 2009     10
   3. Mirae’s CRE Concentrations Reported by Examiners        10
   4. Mirae’s Adversely Classified Assets and ALLL Amounts    12

Figures
   1. Mirae’s Total Loan Growth, 2004 to 2009                  3
   2. Mirae’s Return on Assets Compared to Peer Group          5
   3. Mirae’s Funding Strategy, 2005 to 2009                   7
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General

DATE:                                     January 21, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Mirae Bank, Los Angeles,
                                          California (Report No. MLR-10-015)

As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Mirae Bank
(Mirae), Los Angeles, California. On June 26, 2009, the California Department of
Financial Institutions (CDFI) closed the institution and named the FDIC as receiver. On
July 22, 2009, the FDIC notified the OIG that Mirae’s total assets at closing were
$410.0 million and the estimated material loss to the Deposit Insurance Fund (DIF) was
$49.7 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
This report presents the FDIC OIG’s analysis of Mirae’s failure and the FDIC’s efforts to
ensure Mirae’s Board of Directors (Board) and management operated the bank in a safe
and sound manner. We are not making recommendations. Instead, as major causes,
trends, and common characteristics of financial institution failures are identified in our
reviews, we will communicate those to management for its consideration. As resources
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
allow, we may also conduct more in-depth reviews of specific aspects of the FDIC’s
supervision program and make recommendations, as warranted. Appendix 1 contains
details on our objectives, scope, and methodology. Appendix 2 contains specific loan
details discussed in the report. Appendix 3 contains a glossary of terms and Appendix 4
contains a list of acronyms used in this report. Appendix 5 contains the Corporation’s
comments on this report.



Background

Mirae was insured by the FDIC on July 1, 2002 as a state-chartered, nonmember,
minority-owned bank headquartered in Los Angeles, California that principally serviced
the Korean-American market. Specifically, Mirae operated in the highly competitive
Koreatown area of Los Angeles. Customers in its market were known to “chase”
favorable rates, resulting in higher-than-normal deposit turnover. Accordingly, Mirae’s
business strategy included offering above-market deposit rates to attract customers. The
bank’s loan portfolio was concentrated in Commercial Real Estate (CRE) lending. In
2006, Mirae became a wholly-owned subsidiary of Mirae Bancorp. The bank also
operated four branch offices, the last of which opened in the first quarter of 2009. Since
2008, Mirae operated two loan production offices – one in Seattle, Washington and the
other in Denver, Colorado. The bank established a subsidiary, MRB Property Holding
LLC, in 2009, to hold other real estate properties and conduct business operations of car
washes in foreclosure. Mirae received a capital infusion of $5 million from Mirae
Bancorp in the fourth quarter of 2008 as its financial condition deteriorated, but
otherwise, the holding company provided only minimal financial support. Table 1
provides a summary of Mirae’s financial condition from 2005 to 2009.

Table 1: Financial Condition of Mirae, 2005 to 2009
     Financial Measure            Mar- 2009       Dec-2008      Dec-2007   Dec-2006   Dec-2005
Total Assets ($000s)                480,619          423,077     425,022    371,323    265,024
Total Loans ($000s)                 346,429          357,920     350,800    296,594    173,700
Total Deposits ($000s)              409,951          336,952     335,738    313,452    220,410
Total Brokered Deposits ($000s)      85,985           64,364      19,373     8,000      5,000
Net Income (Loss) ($000s)           (7,165)          (30,514)     1,598      2,845      2,647
Source: Uniform Bank Performance Reports (UBPRs) for Mirae.


Throughout its nearly 7-year existence, Mirae experienced turmoil among its Board of
Directors and significant management turnover. Examiners noted a struggle for control
within the Board at Mirae in 2002 and 2004. In addition, significant changes in
management were noted in 2005 and 2007.




                                                 2
Causes of Failure and Material Loss
Mirae failed because its Board and management pursued an aggressive growth strategy
centered in CRE lending and failed to ensure sound loan underwriting practices. In
particular, Mirae failed to appropriately review a significant portion of its loan portfolio
underwritten by one individual. Although Mirae’s CRE concentrations were not
considered extraordinarily high within the context of regulatory guidance, certain of those
concentrations involved loans to businesses highly susceptible to adverse economic
conditions. Mirae’s aggressive growth strategy was initially profitable, but weaknesses
in Mirae’s Board and management oversight related to loan underwriting and risk
management practices were exposed when the economy started to contract. Mirae’s
funding strategy of paying above-market rates for deposits and its increasing reliance on
wholesale funding, such as brokered deposits, proved to be unsustainable once the bank’s
financial condition started to deteriorate. Ultimately, losses in the loan portfolio eroded
the bank’s capital and liquidity became strained. Collectively, these factors led to the
failure of the bank.

Aggressive Growth Beginning in 2005

As noted in the June 2005 and July 2006 examination reports, the bank set goals to
increase assets to $300 million by the end of 2006, and to $512 million by the end of
2007. During the period December 2004 through December 2008, the bank increased
total loans by 416 percent. Figure 1 shows the growth in total loans between 2004 and
2009.

Figure 1: Mirae’s Total Loan Growth, 2004 to 2009

  $400,000,000

  $350,000,000

  $300,000,000

  $250,000,000

  $200,000,000
                                                                       Total Loans

  $150,000,000

  $100,000,000

   $50,000,000

           $0
                 Dec-04   Dec-05   Dec-06   Dec-07   Dec-08   Mar-09



Source: UBPRs for Mirae.

Management achieved this growth principally through expanding CRE lending which
represented $259 million in loans, or 695 percent of Tier 1 Capital as of December 31,
2008. According to Financial Institution Letter (FIL) 104 -2006 issued December 12,
2006 titled, Concentrations in Commercial Real Estate Lending, Sound Risk Management


                                                              3
Practices, rising CRE concentrations could expose institutions to unanticipated earnings
and capital volatility in the event of adverse changes in the general CRE market.
Although the guidance does not define a CRE concentration, CRE loans exceeding 300
percent of Total Capital represent one of the thresholds used to identify institutions
warranting greater supervisory scrutiny. However, owner-occupied properties are
excluded when calculating CRE loan concentrations levels. When the owner-occupied
properties were excluded from Mirae’s loan portfolio, the December 2008 CRE
concentration calculation was reduced to 393 percent of Tier 1 Capital.3 The following
specific concentrations were included within the total CRE concentration:

    •    Gasoline stations with convenience stores - $66 million, representing 313 percent
         of Tier 1 Capital;
    •    Hotels and motels - $51 million, representing 243 percent of Tier 1 Capital; and
    •    Car washes - $34 million, representing 160 percent of Tier 1 Capital.

Although the bank’s growth strategy supported profitability through December 2007,
according to the 2009 examination report, these loan subgroups were particularly
susceptible to risks during an economic downturn. Further, examiners in 2007 cited the
bank’s significant reliance on Small Business Administration (SBA) loan generation and
gains on sale of the guaranteed portion of these loans as risky, because SBA loan demand
is cyclical and there is high credit risk in the unguaranteed portion of these loans that was
retained by the bank. The bank sold the SBA-guaranteed portion of the loans to increase
earnings, thereby increasing its return on average assets. As the Los Angeles economy
declined in 2008, the bank began experiencing significant losses. Figure 2 depicts
Mirae’s return on assets compared to its peer group.




3
  Although FIL 104-2006 refers to CRE concentrations in terms of total capital, the 2009 examination
report refers to CRE concentrations in terms of Tier 1 Capital. Total capital is comprised of both Tier 1
Capital and Tier 2 Capital, which includes the bank’s ALLL. Accordingly, Mirae’s CRE concentration
percentage in relationship to Total Capital would be slightly less than the percentages presented relative to
Tier 1 Capital.


                                                      4
Figure 2: Mirae’s Return on Assets Compared to Peer Group

    3.00%
    2.00%
    1.00%
    0.00%
    -1.00%
    -2.00%                                                                                           Mirae
    -3.00%                                                                                           Peer Group

    -4.00%
    -5.00%
    -6.00%
    -7.00%
    -8.00%
         Dec-05            Dec-06              Dec-07              Dec-08             Mar-09

Source: UBPRs for Mirae.

Mirae also paid substantial loan referral fees to achieve its asset growth goals.
Specifically, the bank paid $3.1 million in loan origination fees between December 2004
and March 2009 to outside parties. The largest amount, $1.5 million, was paid in 2006.
As discussed later in the report, an outside loan broker, who became an employee of the
bank in December 2005, generated approximately 91 loans for the bank totaling
$155 million. This individual received agreed-upon commission fees ranging from
1.5 percent to 2 percent of the loan referrals, depending on the loan type, in addition to a
base salary. In the 2009 examination, a significant number of this individual’s loans were
classified.

Loan Underwriting

The Board failed to ensure that bank’s loan underwriting practices included current and
complete borrower financial information, properly calculated collateral value, and
documented guarantor collateral position. Specifically, the 2009 examination reported
the following weak credit underwriting practices:

•    Loans were often approved based upon financial statements that were stale and
     frequently self-prepared.
•    Deficient guarantor data included failure to acquire financial information on all
     significant business interests shown in the self-prepared statements.
•    Collateral support, especially for car wash and gas station loans, often relied on
     business enterprise value4 to meet loan-to-value requirements.


4
  According to the 2009 Report of Examination (ROE), such valuation represents an attempt to quantify an
intangible value that may duplicate the income valuation of the underlying property.


                                                   5
•   Loan modification agreements were prevalent, often granted on a temporary basis
    without identification of how payment ability would improve.
•   Secondary collateral was taken when granting concessionary terms without fully
    documenting the equity position or potential value.

In addition, according to the 2009 examination report, management’s desire for loan
growth led to nearly universal acceptance of one individual’s referred loan packages,
neglect of prudent underwriting, and elevated loan concentrations in high-risk business
lines. Examiners reported that bank management approved at least 77 of this individual’s
loan referrals from January 2004 until October 2007, when the first loan denial occurred,
and approved an additional 14 loans from October 2007 through March 2009. Bank
management’s approval of these loan referrals occurred despite its knowledge in 2006 of
allegations that this individual artificially inflated a borrower’s down payment, dating
back to a loan originated in 2005. Despite these allegations, bank management did not
maintain accurate records of loans originated by this individual and did not terminate the
employee until March 2009, when significant problems associated with the loans became
apparent. Appendix 2 provides examples of some loans that were originated by this
individual. The FDIC is evaluating the individual’s activities for any improprieties,
including possible self-dealing.

Allowance for Loan and Lease Losses (ALLL)

In addition to the underwriting deficiencies, the Board implemented a policy to restrict
additions to the ALLL to 15 percent per quarter starting in late 2008. Establishing such a
limitation is not permitted under generally accepted accounting principles.
Notwithstanding, the bank tried to implement this improper strategy to spread out the
time period for recognizing losses and depleting earnings. The 2009 examination
identified 30 loans that needed to be downgraded and recommended that the ALLL
should be increased by a minimum of $16 million.

Liquidity Funding Strategy

Until early 2005, Mirae was able to use core deposits to fund its growth by offering
competitive rates within the Korean bank community, where rates are usually higher than
those offered by other institutions. Additionally, the bank had a few large depositors,
with one of the largest being the State of California.5 However, to fund its loan growth,
Mirae developed a significant reliance on potentially volatile and high-cost funding
sources. Specifically, approximately two-thirds of the asset growth between March 2005
and June 2006 was funded through higher-cost jumbo Certificates of Deposit (CDs). The
bank paid interest rates on jumbo CDs that were nearly 40 basis points higher than other
institutions in the Koreatown area of Los Angeles. The rates it paid on CDs less than
$100,000 was 88 basis points higher than the local Korean peer group and 119 basis
points higher than the bank’s peer group. By the 2007 examination, jumbo CDs
represented over 52 percent of total deposits, while CDs of $100,000 or less had

5
  The 2005 examination report noted that the balances maintained by these depositors fluctuated
significantly and were not considered stable sources of funds.


                                                    6
decreased $5.4 million since the last examination. The bank’s net non-core dependency
ratio increased from 23 percent as of March 31, 2005 to 53 percent as of June 30, 2006.6

In April 2007, the Board approved an alternative funding strategy to replace
approximately $73 million in jumbo CDs with lower cost brokered deposits and Federal
Home Loan Bank (FHLB) advances. The bank improved its liquidity ratio7 in 2008 by
utilizing its Federal Funds borrowing lines8 to invest in securities. Further improvements
were made in the liquidity ratio when the bank offered above-market deposit rates at its
new branch in early 2009 and used the funds to invest in Federal Funds sold and
securities. Although Mirae’s funding strategy improved its liquidity ratio, the strategy
increased Mirae’s dependency on volatile funds that were subject to regulatory
restrictions once its capital levels decreased. Figure 3 depicts Mirae’s funding strategy
for the period 2005 to 2009.

Figure 3: Mirae’s Funding Strategy, 2005 to 2009

    60.0%


    50.0%


    40.0%
                                                                                   Time Deposits(<100M)
                                                                                   Time Deposits(>=100M)
    30.0%
                                                                                   Brokered Deposits
                                                                                   Federal Funding
    20.0%


    10.0%


    0.0%
      Dec-2005       Dec-2006       Dec-2007       Dec-2008       Mar-2009

Source: UBPRs for Mirae.

Furthermore, the bank’s deteriorating condition resulted in the loss of its largest
depositor, the State of California, in the second half of 2008. The state’s $34.5 million in
deposits were removed after the bank failed to maintain the State’s minimum standards


6
  Non-core funding includes funding that can be very sensitive to changes in interest rates such as brokered
deposits, CDs greater than $100,000, and borrowed money. Higher ratios reflect a reliance on funding
sources that may not be available in times of financial stress or adverse changes in market conditions.
7
  Defined as Federal funds sold, cash, and due from and unpledged available-for-sale securities divided by
total deposits.
8
  Federal Funds transactions involve lending (federal funds sold) or borrowing (federal funds purchased) of
immediately available reserve balances. Usually, the Federal Funds transactions are for 1 day or overnight
borrowing and lending.


                                                     7
for financial condition.9 Neither the CDFI nor the FDIC monitors deposits that are tied to
such a rating. DSC officials agreed that developing a monitoring system might be helpful
in the early detection of deteriorating financial conditions at banks that could cause
deposits to be withdrawn. Mirae experienced additional deposit losses totaling
approximately $51 million because some customers became dissatisfied with the bank’s
deposit rates and the devaluation of the Korean currency (the Won) provided an incentive
to many of Mirae’s customers to transfer their money to Korea. The bank increased its
brokered deposits by $57 million to offset these deposit losses, and was able to obtain
significant new deposits of $83.5 million at its newest branch by offering above-market
rates.


The FDIC’s Supervision of Mirae
Our review focused on the FDIC’s supervision of Mirae from 2005 until its failure in
2009. During this period, the FDIC conducted on-site examinations as required and
subjected Mirae to offsite monitoring. The FDIC became aware of Mirae’s growth
strategy in 2005, and by 2006 the FDIC determined Mirae’s overall condition to be less
than satisfactory due to the bank’s increased risk profile by funding rapid asset growth
with high-cost volatile funds. The FDIC recommended that Mirae’s Board adopt a
resolution to address these areas. In the 2007 examination, examiners found the overall
condition of the bank improved but considered assigning Mirae a less than satisfactory
composite rating. However, after taking into consideration information provided by
management and actions taken by management to address concerns, the FDIC and CDFI
determined that Mirae’s condition warranted a higher composite rating. The higher 2007
composite rating increased the time between on-site examinations and shifted offsite
oversight to the field office during a period when Mirae’s condition was weakening. In
hindsight, more supervisory attention at the 2007 examination to the loans originated by
one individual, who generated a significant portion of the loan growth, would have been
prudent. Further, the following factors should have resulted in the FDIC providing
greater supervisory attention to Mirae following the 2007 examination: (1) Mirae’s noted
increasing risk profile, (2) deteriorating economic conditions to which Mirae was
vulnerable, and (3) offsite monitoring flags that identified potential concerns.

Supervisory History

The FDIC and CDFI conducted joint on-site examinations of Mirae from November 2002
through June 2009, except for the 2002 and 2006 examinations that were conducted by
the CDFI and the FDIC, respectively. Prior to 2006, Mirae received composite “2”
CAMELS ratings.10 In 2006, Mirae received a composite “3” CAMELS rating and was

9
  The State relies on Highline Data to determine which institutions can hold public deposits. Highline Data
rates banks on a scale of 1 to 99, with a minimum score of 10 required by the State of California. Mirae’s
rating fell to a 2 based on June 30, 2008 UBPR information.
10
   Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and


                                                     8
subject to a Bank Board Resolution (BBR), a type of informal enforcement action. In the
2007 examination, the overall condition of the bank was found to have improved and the
FDIC advised Mirae that it was relinquishing interest in the BBR.

Although the FDIC and CDFI were in agreement that the bank had met the provisions of
the BBR, the regulators initially disagreed on the 2007 rating. The FDIC believed that
the bank merited a composite “3” rating and the CDFI examiners believed that a
composite “2” rating was warranted. The agencies ultimately agreed to assign Mirae a
composite “2” rating based on additional information provided by the bank and actions
taken by the bank’s management, during the report review period. Two components –
liquidity and earnings – were each rated “3”. This composite rating played a pivotal role
in the supervision of Mirae for two reasons: (1) the bank’s examination cycle was
extended from 12 to 18 months11 and (2) supervision of the bank was transferred from the
regional office to the field office and may have resulted in reduced supervisory attention
to Mirae during this period.

The 2009 examination found that the overall condition of the bank had deteriorated
dramatically and its composite CAMELS rating was downgraded to a “5”. In April 2009,
the FDIC and CDFI issued a Cease and Desist Order (C&D) to Mirae that required the
bank, among other things, to:

    •    increase its Tier 1 Capital by not less than $30 million and thereafter maintain its
         Tier 1 Capital in an amount not less than 8 percent of its total assets and
    •    not increase the amount of its brokered deposits above the amount outstanding at
         the date of the order and submit a written plan for reducing reliance on volatile
         funding sources.

The bank was unable to meet the conditions of the C&D and the bank was closed
2 months later. Table 2 summarizes examination and visitation activity for Mirae, from
2005 to 2009.




Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
11
   Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope, on-site examinations of every state nonmember bank at least once during each
12-month period, and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. Mirae met these conditions by being Well Capitalized and
being assigned a "1" or "2" management component rating and a "1" or "2" composite rating.


                                                     9
Table 2: Examinations and Visitations of Mirae, 2005 to 2009
 Examination         Examination         Examination                          Supervisory        Supervisory
  Start Date            Type              as of Date          Agency*           Ratings            Action
  06/27/2005         Examination          03/31/2005        CDFI/FDIC           222222/2
  07/10/2006         Examination          03/31/2006          FDIC              223333/3        BBR
                                                                                                (10/10/2006)
  04/10/2007            Special                                 FDIC               N/A
                     Purpose Visit
  07/16/2007         Examination          03/31/2007        CDFI/FDIC           222332/2        Released
                                                                                                from BBR
                                                                                                (01/03/2008)
  02/23/2009         Examination          12/31/2008        FDIC/CDFI           555555/5        C&D
                                                                                                (04/27/2009)
 Source: ROEs for Mirae and DSC supervisory documents.
 * Examinations of Mirae for this period were conducted jointly, with the lead agency listed first, unless
 otherwise indicated.

Supervisory Concern Related to Aggressive Growth

The 2005 examination noted concern with Mirae’s aggressive growth projections in the
event of an economic downturn. Further, examiners noted that the bank was somewhat
sensitive to CRE market conditions even though its exposure was determined to be less
than the 300 percent of Tier 1 Capital – the level of concentration identified by the FDIC
as warranting greater supervisory scrutiny. Table 3 provides examiner comments on
Mirae’s CRE concentrations, from 2005 to 2009.

Table 3: Mirae’s CRE Concentrations Reported by Examiners
                                          CRE to Tier 1
                     Examiner                Capital                Examiner-
                   Comments on            Concentration         Identified Specific          Specific
                   CRE to Tier 1           Excluding            Concentrations of         Concentration
 Examination          Capital                Owner-               25 Percent or           Percent of Tier
  Start Date       Concentration            Occupied                   More                 1 Capital
  06/27/2005        None Reported          None Reported           None Reported           None Reported
  07/10/2006          485 percent          Not Identified       • Car Wash Industry          116 percent
  07/16/2007          502 percent            203 percent        • Car Wash Industry          119 percent
                                                                • Hotels and Motels          111 percent
  02/23/2009          695 percent            393 percent        • Gas Stations with          313 percent
                                                                  Convenience
                                                                  Stores
                                                                • Hotels and Motels          243 percent
                                                                • Car Washes                 160 percent
Source: ROEs for Mirae.

In light of the growth in assets, the 2006 examination made recommendations to enhance
the bank’s CRE credit concentrations monitoring systems, including the need to:




                                                      10
     •   establish CRE limits relative to Tier 1 Capital;
     •   monitor concentrations, including unfunded commitments, relative to Tier 1
         Capital and Board limits;
     •   identify concentrations by geographic market as well as loan type; and
     •   report quarterly on market conditions in the bank’s real estate lending areas.

Given that the overall condition of the bank was found to be less than satisfactory in
2006, in part because of the rapid asset growth, the FDIC contemplated issuing a
Memorandum of Understanding (MOU) to the bank.12 However, following internal
discussions that included consideration of management’s proactive approach to resolving
examiner-identified issues, the FDIC agreed to recommend the adoption of a BBR. The
BBR is a less structured informal enforcement action than an MOU and only requires
action by the institution’s Board. The provisions of the BBR included limitations related
to asset growth and concentrations. As part of the July 2007 examination, examiners
concluded that the bank had taken sufficient steps to address the provisions of the BBR.

Supervisory Concern Related to Loan Underwriting

Examiners did not identify poor underwriting concerns in Mirae’s portfolio during the
2005 and 2006 examinations. In 2007, loan underwriting was considered to be generally
adequate for the size and complexity of the loan portfolio. However, the 2007
examination recommended further improvements to credit administration practices and
noted that the bank needed to put additional effort into obtaining updated financial
information, especially for the commercial and SBA loans. The bank was also cited for
returning loans to accrual status without a demonstrated performance period. Examiners
did not identify weak credit underwriting in the loan portfolio until the 2009 examination.

However, the FDIC may have missed an opportunity in 2007 to focus on loans originated
by the individual, discussed earlier in the report, who was responsible for originating
much of Mirae’s loan growth. Follow-up activity related to the allegation reported to
regulators that was ongoing before the start of the 2007 examination noted a complete
break-down in Mirae’s underwriting, approval process, and internal controls related to
one loan originated by this individual. In addition, this follow-up activity raised
questions about why it took Mirae 8 months to submit information to regulators about the
allegations.

Although the allegation only related to one loan, examiners did not have the opportunity
to consider the follow-up review results during the examination planning phase because
they were not included in the field office correspondence file. DSC officials explained
that these results had not been filed because the FDIC had not made a final determination
regarding the disposition of the allegation. According to FDIC officials, correspondence
files that are used for examination planning usually do not contain copies of
correspondence and documentation associated with ongoing reviews. FDIC officials
stated that consideration would be given to including initial review results in the

12
  Generally an MOU is used when there is reason to believe the deficiencies noted during an examination
need a more structured program or specific terms to effect corrective action.


                                                   11
correspondence file to help ensure that examiners are aware of all relevant
communications.

Lacking this information, the 2007 examination and resulting report did not focus on
loans originated by this individual, even though they represented 51 percent of the total
substandard loans identified in the 2007 examination. When examiners did focus on
loans originated by this individual during the 2009 examination – almost 2 years later –
these loans comprised $83 million, or 391 percent of Tier 1 Capital, and $45 million of
classified loans. Moreover, examiners determined that the remaining $37 million in loans
were deficient enough to merit special mention.

Supervisory Concern Related to ALLL

Beginning in 2006, each of the examinations had recommended increases in the ALLL.
Specifically, examiners first raised concerns about the bank’s ALLL methodology in
2006 because portfolio segmentation by loan type was needed to better support its ALLL
calculation. The 2007 examination noted that the methodology had improved and was
more consistent with the 2006 Interagency Policy Statement on Allowance for Loan and
Lease Losses.13 By the 2009 examination, examiners cited the bank for its inappropriate
practice of limiting increases in the ALLL factors to 15 percent per quarter. Table 4
provides Mirae’s adversely classified assets and ALLL amounts from 2005 to 2009.

Table 4: Mirae’s Adversely Classified Assets and ALLL Amounts
                                             Asset Quality
                                         (Dollars in Thousands)
                   Examiner Adversely Classified Asset Amounts                    ALLL Amounts
                                                                                            Increase in
                                                               Total
                                                                                               ALLL
                                                             Adversely        ALLL
                                                                                            Computed
 Examination                                                 Classified     Computed
                                                                                                by
    Date          Substandard        Doubtful      Loss        Items         by Mirae
                                                                                            Examiners
     6/27/05                  $221          $0        $25          $246             $980              $0
     7/10/06                  $637         $72      $637          $1,346          $2,347           $250
     7/16/07                $6,837      $1,567      $927          $9,331          $3,650           $385
     2/23/09               $65,627      $8,909     $7,334        $81,870          $9,771         $16,000
 Source: ROEs for Mirae.




13
  The policy statement reiterates key concepts and requirements included in generally accepted accounting
principles and existing ALLL supervisory guidance. An appropriate ALLL covers estimated credit losses
on individually evaluated loans that are determined to be impaired, as well as estimated credit losses
inherent in the remainder of the loan and lease portfolio.



                                                   12
Offsite Review Program

The FDIC has developed various offsite tools, including the offsite review list, to monitor
insured institutions between examinations. One of the measures used to produce the
offsite review list is the Statistical CAMELS Offsite Rating (SCOR), which uses
statistical techniques to measure the likelihood that an institution will receive a rating
downgrade in the next examination. Mirae was flagged for offsite review each quarter
from December 2007 through December 2008 based on bank-filed Call report data. The
offsite review captured Mirae’s consistently high growth and escalating financial decline
as the bank suffered increasing distress in its loan portfolio. Financial indicators such as
the Net Interest Margin and Return on Assets were also showing significant declines for
the bank. The SCOR probability of a downgrade increased with each quarter until, by
September 2008, the probability of a CAMELS composite downgrade to a “4” was 94
percent.

All the offsite reviews for Mirae were completed by the field office, with the exception of
the final review in December 2008 which was completed by regional office personnel.
This occurred despite guidance in the Case Manager Procedures Manual, which states
that only certain institutions meeting defined criteria should be reassigned to the field
office for offsite monitoring by Field Supervisors and Supervisory Examiners. Criteria
for field office reassignment includes institutions having composite ratings of “1” or “2”
at the two most recent examinations. Mirae, rated a composite “3” at the 2006
examination, did not meet the criteria for reassignment to the field offsite review and
monitoring should have remained at the regional office. DSC officials acknowledged
that the responsibility for conducting offsite review for Mirae was erroneously assigned
to the field in February 2008.

Further, according to the Case Manager Procedures Manual, an Assistant Regional
Director (ARD) must approve offsite reviews, whether conducted by a Field Supervisor
or Case Manager. In the case of Mirae, the Field Supervisor delegated responsibility to
conduct the offsite reviews to a Supervisory Examiner. For the March and June 2008
offsite reviews, the ARD delegated approval of the offsite reviews. In one case, the same
Supervisory Examiner who prepared the offsite review comments also approved them,
having been delegated ARD responsibilities during that time. This represented a
fundamental breakdown in the tenet of separation of duties and may have resulted in
reduced supervisory attention to Mirae when there were strong indicators of the bank’s
financial decline, including the bank’s Highline rating for this period, which had dropped
to a 2 (on a scale of 1 to 99) as discussed earlier in the report.

As part of its offsite monitoring process during 2008, the FDIC held discussions with
bank management in March 2008, and again in August 2008, to discuss management’s
actions to address the decline in asset quality. However, the offsite review comments do
not indicate that the CDFI was contacted or that an accelerated examination was
warranted. FDIC officials informed us that there were resource constraints in the region
in 2008 that would have precluded them from accelerating the examination of Mirae.
Several larger institutions in the region were at or near failing and the workload had to be
prioritized. FDIC officials considered the following factors in their decision not to


                                             13
accelerate the examination: (1) the bank’s minimal exposure to construction and land
development, (2) the level of non-owner occupied CRE, and (3) a $5 million capital
injection made by the holding company. By the time the examination commenced in
February 2009, the bank’s condition had significantly deteriorated. An interim
downgrade to a composite “4” was issued to the bank on March 24, 2009 while the
examination was ongoing. The final examination results, as reported in the examination
report, lowered the bank to an overall composite “5”.

Supervisory Concern Related to Liquidity Funding Strategy

Examiners noted in 2005 that Mirae’s funding needs would increase as the Board pursued
an aggressive growth strategy and that the bank had experienced a noticeable acceleration
of funding costs compared to the national peer. By the 2006 examination, examiners
were reporting the bank’s significant reliance on volatile and high-cost funding sources.
Enhancements were needed to monitor the stability of deposits, especially given that
liquidity ratios were incorrectly reported to the Board. Due to the high rates being paid
on deposits, which attract rate shoppers, examiners recommended that management
expand its monitoring of the volatility of the entire jumbo CD portfolio to determine
whether (1) adequate contingency funding plans were in place and (2) the bank’s budget
assumptions regarding deposit composition and costs of funds were supportable. In
addition, the BBR included provisions related to the bank’s liquidity.

The 2007 examination report stated that the bank had instituted in-depth analysis of
volatile deposits, covering the entire CD portfolio, on a quarterly basis. The analysis
included reports that rank deposits by volatility, sort deposits by rates, and track deposit
renewals. Examiners stated that the results were back-tested to validate the current
findings and adjust future reports as necessary. Additionally, examiners reported that
management had launched several new products to promote core deposits. On a regular
basis, management monitored peer interest rates to control costs of funds and prevent the
bank from paying rates higher than the market average. However, examiners also noted
that liquidity risk had not reduced and remained high, and recommended that
management develop and implement a cash flow modeling report to project sources and
uses of funds to assist in identifying any potential funding shortfalls.

At the 2009 examination, examiners noted that the bank continued to struggle to obtain
and maintain a sufficient volume of funds on reasonable terms. Mirae’s over-reliance on
non-core and higher-cost funding sources had become increasingly worse since the
previous examination and examiners noted that Mirae’s liquidity strategy failed to fully
consider implications associated with the bank’s deteriorating financial condition. For
instance, the bank’s contingent liquidity plan did not consider restrictions to brokered
deposits set forth in Part 337.6 of the FDIC’s Rules and Regulations. Additionally, the
bank failed to consider that once it became Undercapitalized, it would face rate
restrictions on all its deposits.




                                             14
Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC’s Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately
capitalized. The FDIC implemented PCA for Mirae, as follows:

   •   On April 9, 2009 the FDIC formally notified the bank that its PCA status was
       Undercapitalized based on December 31, 2008 Call Report information, and
       adjusted for the preliminary findings from the February 2009 examination. The
       FDIC also informed the bank that it was required to file a written capital
       restoration plan by May 25, 2009.

   •   On May 6, 2009 the FDIC notified Mirae that it was deemed to be Significantly
       Undercapitalized based on March 31, 2009 Call report data. In addition to the
       capital restoration plan, the FDIC requested that by May 19, 2009, the bank
       provide a summary of the specific steps taken by management to comply with the
       mandatory restrictions required under section 38.

PCA’s focus is on capital, which can be a lagging indicator of an institution’s financial
health. Although the FDIC followed PCA guidance, by the time Mirae’s capital levels
fell below the required thresholds necessary to implement PCA, the bank’s condition had
deteriorated to the point at which the institution could not raise additional capital in the
time period necessary to prevent a liquidity failure.



Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
January 15, 2010, the Director, DSC, provided a written response to the draft report.
That response is provided in its entirety as Appendix 5 of this report. DSC’s response
reiterated the OIG’s conclusions regarding the cause of Mirae’s failure. With respect to
our assessment of FDIC’s supervision, DSC’s response also reiterates the supervisory
history, including supervisory actions, presented in the report. DSC’s response also
states that examiners made recommendations in 2007 to further enhance Mirae’s credit
administration practices due to one bank official being responsible for originating 51
percent of the substandard loans identified during the 2007 examination. As a point of
clarification, although we did find that examiners made such recommendations, we did
not find any evidence that examiners were aware of the bank official's involvement in the
substandard loans identified in the examination report. In that regard, our report states
that examiners did not have the opportunity to consider information associated with loans
originated by this individual at the 2007 examination because the information had not
been included in the field office correspondence file at the time examiners were planning
the examination.


                                             15
                                                                               Appendix 1
                     Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from October 2009 to December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Mirae Bank operations from 2002 until its
failure on June 26, 2009. Our review also entailed an evaluation of the regulatory
supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

     •   Analyzed reports of examination prepared by the FDIC and the CDFI examiners
         from 2002 to 2009, focusing on supervisory activities between 2005 and 2009.

     •   Reviewed the following:

           •   Bank data and records maintained at the Division of Resolutions and
               Receiverships’ (DRR) Irvine, California office.

           •   Correspondence and pertinent examination work papers maintained at DSC’s
               San Francisco and Los Angeles, California offices.

           •   Pertinent DSC policies and procedures.

     •   Interviewed the following FDIC officials:

           •   DSC management in Washington, D.C., and the San Francisco Regional
               Office.


                                             16
                                                                                 Appendix 1
                     Objectives, Scope, and Methodology


           •   FDIC examiners from the DSC Los Angeles West Field Office, who
               participated in examinations or reviews of examinations of Mirae.

     •   Met with officials from the CDFI to discuss the historical perspective of the
         institution, its examinations, and other activities regarding the state's supervision
         of the bank.

     •   Researched various banking laws and regulations, including State of California
         laws.

We performed the audit field work at DRR offices in Irvine, California and DSC offices
in San Francisco, California.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
reports of examination, and interviews of examiners to understand Mirae Bank’s
management controls pertaining to causes of failure and material loss as discussed in the
body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including reports of examination, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                               17
                                                                                   Appendix 2
              Examples of Broker/Employee-Referred Loans

                                       Amount
          Original       Original     Charged-off        DSC/CDFI
           Note           Note         by Mirae         Examination            Examiner
 No.      Amount          Date                             Date          Classification/Amount
   1.     $4,200,000      09/08/05         $542,555      Not Examined         Not Identified in ROE
   2.     $4,680,000      11/16/05     Not Identified         02/23/09      Substandard/$4,479,000
   3.     $4,200,000      12/20/05     Not Identified         02/23/09             Loss/$2,468,000
                                                                            Substandard/$1,615,000
    4.     $8,500,000     02/24/06        $5,170,687          02/23/09      Substandard/$3,000,000
    5.      $800,000      02/28/06         $598,953      Not Examined         Not Identified in ROE
    6.     $1,000,000     02/28/06         $136,237      Not Examined         Not Identified in ROE
    7.     $1,700,000     03/08/06        $1,200,001          07/16/07      Substandard/$1,650,000

    8.     $4,100,000     03/13/06     Not Identified        02/23/09          Doubtful/$3,975,000
    9.     $2,500,000     03/13/06     Not Identified        02/23/09       Substandard/$2,303,000
   10.     $1,850,000     03/20/06       $1,333,997          07/16/07       Substandard/$1,834,000
                                                             02/23/09        Substandard/$500,000
   11.     $1,820,000     09/11/06         $167,778     Not Examined          Not Identified in ROE
   12.     $2,415,000     01/10/07     Not Identified        02/23/09              Loss/$1,264,000
                                                                            Substandard/$1,117,000
   13.     $3,100,000     02/08/07     Not Identified         02/23/09      Substandard/$2,996,000
   14.     $3,000,000     02/13/07     Not Identified         02/23/09      Substandard/$2,956,000
   15.      $500,000      02/22/07     Not Identified         02/23/09       Substandard/$495,000
   16.     $4,700,000     03/28/07     Not Identified         02/23/09      Substandard/$4,537,000
   17.      $675,000      05/02/07         $157,360      Not Examined         Not Identified in ROE
   18.     $1,000,000     07/13/07     Not Identified         02/23/09       Substandard/$987,000
   19.     $1,350,000     01/17/08     Not Identified         02/23/09      Substandard/$1,337,000
Source: Examiners’ work papers and OIG analysis.




                                                   18
                                                                                  Appendix 3
                               Glossary of Terms
Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.

Bank Board          Informal commitments adopted by a financial institution’s Board
Resolution (BBR)    directing the institution’s personnel to take corrective action regarding
                    specific noted deficiencies.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.

Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Memorandum of       An informal corrective administrative action for institutions considered
Understanding       to be of supervisory concern, but which have not deteriorated to the
(MOU)               point where they warrant formal administrative action. As a general
                    rule, an MOU is to be considered for all institutions rated a composite 3.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)               subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                    Regulations, section 325.101, et. seq., implements section 38, Prompt
                    Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for taking prompt supervisory
                    actions against insured nonmember banks that are less than adequately
                    capitalized. The following terms are used to describe capital adequacy:
                    (1) Well Capitalized, (2) Adequately Capitalized, (3) Undercapitalized,
                    (4) Significantly Undercapitalized, and (5) Critically Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective
                    action or compliance with the PCA statute with respect to an institution
                    that falls within any of the three categories of undercapitalized
                    institutions.




                                             19
                                                                             Appendix 3
                            Glossary of Terms


Statistical      An FDIC financial model that uses statistical techniques, offsite data,
CAMELS Offsite   and historical examination results to assign an offsite CAMELS rating
Rating (SCOR)    and to measure the likelihood that an institution will receive a CAMELS
                 downgrade at the next examination.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial
                 Institutions Examination Council for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from Call
                 Report data submitted by banks.




                                         20
                                                                    Appendix 4
                               Acronyms


ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ARD      Assistant Regional Director
BBR      Bank Board Resolution
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity
         to Market Risk
C&D      Cease and Desist Order
CD       Certificates of Deposit
CDFI     California Department of Financial Institutions
CRE      Commercial Real Estate
DIF      Deposit Insurance Fund
DRR      Division of Resolutions and Receiverships
DSC      Division of Supervision and Consumer Protection
FDI      Federal Deposit Insurance
FDIC     Federal Deposit Insurance Corporation
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
MOU      Memorandum of Understanding
OIG      Office of Inspector General
PCA      Prompt Corrective Action
ROE      Report of Examination
SBA      Small Business Administration
SCOR     Statistical CAMELS Offsite Rating
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                        21
                                                                                                                  Appendix 5
                               Corporation Comments


FDI6
Federal Deposit Insurance Corporation
~~ Hlh Slreei ~w. Wa;r.i"lI)O. DC. 2o.29.~S9J                    C..' s.:. d SU:;'' si::', and CcrS'F)' ?rCAe::I.)n


                                                                 January 15. 2010

TO: Stephen Beard
                   Assistant InsredOr Gcneral for Material Los; Rc\ iew;

FRO:\I: Sandra L. Thompson
           Direet0r

Sl:B.JECT: Draft Audit Report Eiiitlcd, Maienal Loss Review of Mirae Bank, Los Ange'es,
             California (Assignment )\0. 2009.066)

I'umiant to Seetlün 3~(k) of the Fedeml DeposIt Insurance aci (FDI ,\ct), the Federal Deposii
Insurance Corporation', Office of Inspect,,, General (OIG) ccndacted a material  loss review of
Mirae Bank (\IB) whi,'h failed on Line 26. 2009. This memorandum IS the response of the
Division ofSupeTVI~lon and Consiimer Proteciion (DSC) io the OIG's Drarì Report (Report)
received Oil Decemher 23, 2009

The Report concludes that MB's failure was dae to its board and management pursuing an
aggressive growth strategy centered in commercial real est.ite and :ailing to ensure loan
underwnting practices were sound. The Report states that MH's aggre;s,,,e growth was imtially
profitable; however, weaknesses in \18's Board and management oversight of loan underwriting
and risk management praclIces were exposed as the economy contracted. The Report indicates
\IB's funding stralt:gy of pa~ing ahove-market rates for deposits and reliance on whole,ale
funding, such as brokered dcposits. pro\ed unsustainable once MB's financial condition began 10
deteriorate. Ultimately, MB's capital and Iiquidity became straincd

The Report focuses on the FDIC's supervision covering the period from 2005 uniil 1,13 was
closed in 2009. As part of the supervisory program during that period. FDlC and the Calitornia
Department of Financial Institutitlls (CDFI) conducted on-silt examinations in June 2005, July
2006, July 2007, and February 2009; while in April 2007, FDIC pcrfonned a spccial purposc'
visitation During ihis timeframc. DSC conducted regular offsite l1ni~ltoring of M B.

 As a result ofthc July 2006 exainination, M13 was downgraded to a"3" composite CAMELS
 rating. Based on recommendations and findings provided at the exit meetings, M8's sen:or
 management adopted a Bank Board Resolution. The July 2007 examination noted that MB
 management's acuons tad improved iIS overall condition; however, examiners made
 r~ommendations to further enhance credit administration practices due to one hank ofll'a!
 being rcsporisiblc for migirialirig 51 % otihe substandard 10.1", identified during the 2007
 examination. The FDIC's 4" quarter 2008 offsite review renectcJ M13's detcriorating asset
 qualiiy, dcelining capital, unsausfactory eamings and stramed Iiquidiiy ¡xsiiion. which resujled
 iii an interim ratings ebange to a composite "4" in the I" quarter of 2009. Findings of the
 February 2009 examination resulted in a Cease and Desist Order issued m April 2009. FDIC and
 the CDFI appropriately monitored and supervised :vE until the time that it was closed.

 Thank you for thc opportunity to review and comment on ihe Report.




                                                 22
